McGuireWoods LLP
Wells Fargo Center
South Tower
355 S. Grand Ave., Suite 4200
Los Angeles, CA 90071
Phone: 213.627.2268
Fax: 213.627.2579
www.mcguirewoods.com
Gregory Evans
Direct: 213.457.9844
gevans@mcguirewoods.com

Via Electronic Filing
April 15, 2021
Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First St., N.E.
Washington, D.C. 20543
Re: Atlantic Richfield Co. v. Asarco LLC, No. 20-1142
Dear Mr. Harris:
I represent the respondent in this case. Under Supreme Court Rule 30.4, I request a 30day extension of time in which to file a response to the petition for a writ of certiorari. The
petition was docketed on February 11, 2021, and this Court requested a response on April 12,
2021. The response is currently due on May 12, 2021. If a 30-day extension is granted, the
response would be due on Friday, June 11, 2021.
The requested extension is needed due to the press of other matters. Thank you for your
consideration of this request.
Very truly yours,
Gregory Evans
cc: (via electronic and first-class mail)
Shannon Wells Stevenson, Counsel for Petitioner

Atlanta | Austin | Baltimore | Charlotte | Charlottesville | Chicago | Dallas | Houston | Jacksonville | London | Los Angeles - Century City
Los Angeles - Downtown | New York | Norfolk | Pittsburgh | Raleigh | Richmond | San Francisco | Tysons | Washington, D.C.

